           U.S. Department of
                                                       Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—Integrity                     Date:    July 13, 2005
           Threats to Hazardous Liquid Pipelines
           Pipeline and Hazardous Materials Safety
           Administration
           Project No. 05A3009A000
  From:                                                                Reply to
           David A. Dobbs                                              Attn of:   JA-10
           Assistant Inspector General
            for Aviation and Special Programs Audits
    To:    Stacey L. Gerard
           Acting Assistant Administrator/Chief Safety
             Officer, Pipeline and Hazardous Materials
             Safety Administration

           The Office of Inspector General plans to conduct an audit of the Office of Pipeline
           Safety’s (OPS) oversight of hazardous liquid pipeline operators’ processes for
           mitigating and/or repairing pipeline integrity threats. OPS initiated the integrity
           management program in 2000 after an analysis of several pipeline ruptures
           highlighted the need for continuous assessments of hazardous liquid pipeline
           segments. Our audit objectives will be to assess: (1) actions taken by pipeline
           operators to remediate integrity threats, and (2) OPS efforts to verify the adequacy
           of these corrective actions.

           The audit will include visits to OPS Headquarters and regional offices, state
           regulatory offices, and pipeline operator facilities. We also plan to contact relevant
           trade associations and other groups, as deemed necessary. We plan to start this
           audit the week of August 1, 2005. We will contact your audit liaison to schedule an
           entrance date to discuss the planned audit. The Program Director for the project is
           Darren Murphy, and the Project Manager is Jerrold Savage.

           If you have any questions or require additional information concerning the audit,
           please call Mr. Savage at (206) 220-6511 or Mr. Murphy at (206) 220-6503.

                                                   #

           cc: Laura Birkhimer, PHA-30
               Martin Gertel, M-1
